                 The Taxpayer Advocate Service Needs to
                  Improve Case Management to Ensure
                 Taxpayer Problems Are Resolved Timely

                                 September 2004

                       Reference Number: 2004-10-166




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                 September 29, 2004


      MEMORANDUM FOR NATIONAL TAXPAYER ADVOCATE


      FROM:                        Gordon C. Milbourn III
                                   Acting Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - The Taxpayer Advocate Service Needs to
                                   Improve Case Management to Ensure Taxpayer Problems Are
                                   Resolved Timely (Audit # 200310039)


      This report presents the results of our review of the Taxpayer Advocate Service’s (TAS)
      case processing function. The overall objective of this review was to evaluate the
      efficiency and timeliness of the TAS in resolving taxpayers’ problems. This audit was
      conducted as part of our Fiscal Year (FY) 2004 Annual Audit Plan.
      In summary, the time it takes the TAS to resolve taxpayers’ problems has increased
      significantly over the past 5 years, from an average of 37 days in FY 1998 to 76 days in
      FY 2003. This increase is not due to a decrease in staff or a heavier workload. Staffing
      for the TAS has remained fairly constant since FY 2000. Moreover, new case receipts
      and closures have decreased approximately 41 percent since FY 1998. The National
      Taxpayer Advocate (NTA) stated that part of the increase in case resolution time
      resulted from changes in the TAS organizational structure and its authorities in
      FY 2000. The NTA also believes the TAS now works a higher percentage of cases
      involving complex issues. However, the NTA was not able to provide enough data or
      other evidence for us to verify these as causes for increased case resolution time.
      Based on our review, we believe a significant portion of the increase in time needed to
      resolve taxpayers’ problems was due to inefficient case management on the part of TAS
      employees (called case advocates) and inadequate management oversight by the TAS.
      We reviewed a statistical sample of 500 of the 203,634 TAS cases closed in FY 2003.1
      There were 273 cases in our sample in which case advocates did not take timely action
      to resolve the taxpayers’ problems. Based on the results of our review, we estimate

      1
       TAS statistics report only 196,619 cases closed in FY 2003 because the TAS does not include the approximately
      7,000 cases which had been previously closed but were then reopened and closed again in FY 2003.
                                                    2

that 76,183 taxpayers experienced unnecessary delays in FY 2003 because the TAS
did not take timely actions. These delays increased the TAS’ average time needed to
resolve cases by 16 days.
Case advocates generally did not document a plan of action on taxpayer cases and did
not effectively establish follow-up dates for actions needed to resolve cases. Even
when follow-up dates were recorded, case advocates did not follow up by the dates set
and did not document why follow-up dates were missed. Delays also occurred because
it appeared case advocates did not have the technical knowledge needed to resolve
certain cases and did not seek assistance from management or technical experts. In
addition, case reviews conducted by TAS managers did not appear to address the
absence of action plans or untimely case processing.
Last year, we reviewed the TAS Systemic Advocacy function, which is devoted to
resolving problems that affect large numbers of taxpayers.2 In our opinion, systemic
problems were not addressed timely because many of the staff were shifted away from
Systemic Advocacy function work to produce the NTA’s Annual Report to Congress.
Based on our prior and current reviews of the TAS, we are concerned the TAS may not
be using its resources effectively to accomplish its primary mission of helping individual
taxpayers and resolving systemic problems.
There were also some delays in closing cases that did not affect taxpayers but did
inflate the TAS inventory of open cases and the average reported case resolution time.
In 56 of the 500 TAS cases reviewed, the cases were not closed after the TAS had
completed all case actions. We estimate these types of delays affected 18,817 cases,
which inflated the average reported case resolution time in FY 2003 by over 3 days.
For the cases in which the TAS used an Operations Assistance Request to ask for
assistance from one of the Internal Revenue Service (IRS) operating divisions to
resolve taxpayers’ problems, there was generally not enough information in the cases to
evaluate whether actions by the operating divisions were timely. The TAS has since
developed an electronic method to maintain and track these Requests. However, in the
cases we reviewed, the case advocates generally did not coordinate with the operating
divisions to establish reasonable time periods for completion. Better communication will
be needed to ensure the dates set for completion are achievable; otherwise, the reports
and statistical information the TAS provides to the operating divisions may be of limited
benefit in providing a useful measure of timeliness.
We recommended the NTA alert TAS managers that case advocates are not developing
and documenting case action plans as required, provide training to case advocates on
developing case action plans and establishing estimated case completion dates, and
eliminate the 5-day grace period allowed on follow-up actions. The NTA should provide
specific direction for managers as to when and how often to review cases. The NTA
should also revise procedures and alert managers that cases should be closed once a


2
 The National Taxpayer Advocate Could Enhance the Management of Systemic Advocacy Resources (Reference
Number 2003-10-187, dated September 2003).
                                                        3

determination has been made on a taxpayer’s problem. Further, the NTA should
provide additional guidance to case advocates on communicating with IRS operating
divisions to coordinate case resolution and to set agreed on time periods in which to
complete the actions specified on Operations Assistance Requests.
Management’s Response: The NTA agreed with five of the seven recommendations in
our report and with the premise that timeliness in casework is vital. The TAS has
redesigned the Taxpayer Advocate Management Information System (TAMIS) to give
employees the tools to maintain date fields, action plan items, and inventory management
controls. Managers use the “Next Action Date” report generated by the new TAMIS to
ensure timeliness of case actions. TAS management is required to use a new case
review form that addresses the necessity of documenting a case action plan. Recent
changes to the TAS procedures will provide clarity on the use of action plans and
follow-up dates, and these new procedures will be part of TAS training scheduled for the
first quarter of FY 2005. The TAS will also examine the managerial review process and
has implemented a new requirement for local taxpayer advocates to review cases that
have reached 100 days. Area and Headquarters Offices will review the local manager
reviews. In addition, the TAS is developing a strategy to conduct case reviews 7-10 days
after new cases are received to ensure case advocates have developed action plans and
are on the right track. The TAS plans to make a formal determination on the types and
frequency of reviews based on the trends identified through its quality and evaluative
reviews.
In addition, the TAS will issue a reminder to ensure all actions occur on or within limits
described in TAS procedures. The TAS will review the existing procedural requirements
to determine if additional clarification is needed. The redesigned TAMIS will allow
managers to more effectively track dates set by case advocates and to conduct follow-up
reviews to ensure deadlines are met. The TAS will continue to emphasize setting
achievable completion dates and work with the operating divisions to ensure adherence
to the Service Level Agreements. The TAS has initiated projects to promote campus3
consistency and to improve procedures for processing innocent spouse claims, Criminal
Investigation function freeze cases, and Earned Income Tax Credit cases. In addition,
TAS procedures recommend time periods for some common issues arising through
Operations Assistance Requests to assist the TAS in establishing estimated completion
dates.
The NTA did not agree to eliminate the 5-day grace period allowed on follow-up dates
because the NTA believes case advocates must have the flexibility to set their own work
priorities. In addition, the NTA did not agree to close cases on the TAMIS that the TAS is
only monitoring while the cases are in the Appeals function because the NTA believes it
would not be consistent with the TAS’ mission of assisting taxpayers regarding their
appeal rights and processes.



3
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                            4

The NTA also expressed some concerns about the presentation of data and
conclusions in this report. The NTA believes a statistical sample of cases for fiscal
years before FY 2003 would be necessary to make a determination of the cause of the
increase in cycle time from earlier years. The NTA also disagreed with our
determination on more than 30 percent of the cases we reviewed. The NTA believes
many of the audit team’s findings of delay reflect subjective judgments about how cases
should be handled rather than instances of inefficiency or neglect. The NTA asserted
that the median case cycle time is a better indicator of timeliness than the mean or
average cycle time. Further, the NTA stated that the case cycle time statistics before
FY 2001 are not comparable to those for FY 2003 because the TAS operated as the
Problem Resolution Program until March 2000. The NTA noted that recent trends show
TAS casework is timelier by the TAS quality standards and believes a higher
percentage of cases have complex issues than in FY 2001. The NTA believes an
indicator of complexity is the increase in cases classified as “compliance” compared to
“service” cases. The TAS is still working to develop a better measure to quantify
complexity but, based on anecdotal evidence, the NTA believes this is a reasonable
indicator.
The NTA again noted disagreement with our prior report on the TAS Systemic
Advocacy function. The NTA stated that certain systemic issues can be resolved only
through legislation; therefore, using Systemic Advocacy function resources for the
Annual Report to Congress is proper. Management’s complete response to the draft
report is included as Appendix VI.
Office of Audit Comment: We believe the conclusions and recommendations in this
report are valid. The NTA should eliminate the 5-day grace period allowed on follow-up
dates because allowing this grace period undermines the importance of meeting
follow-up dates and the sense of urgency inherent to the TAS. We understand that
case advocates may not always meet the follow-up dates they set. We believe in those
instances they should document the cases with an explanation. In our review, we found
that case histories were poorly documented, and case advocates generally did not
explain why follow-up dates were missed. In addition, the NTA should close cases on
the TAMIS once the IRS has made a determination on the case. Keeping the cases
open on the TAMIS when the cases are in monitoring status reduces the accuracy of
case cycle time statistics, which reduces their benefit as a diagnostic tool.
Also, we believe that the TAS’ actions do not fully address Recommendations 1 and 7.
The TAS’ actions appear to be beneficial but do not fully address the recommendation
to alert managers that case advocates are not developing action plans as already
required by TAS procedures, and that follow-up dates are not being recorded or met.
The purpose of an alert is to quickly notify management that a significant problem exists
and should be addressed immediately. In addition, the TAS’ actions appear beneficial
to the overall processing of Operations Assistance Requests, but the proposed
corrective actions do not fully address our recommendation to provide case advocates
additional guidance on communicating with the IRS operating divisions. Both the TAS
and the operating divisions need to reach agreement about when Operations
Assistance Requests will be completed. While we still believe our recommendations
                                                         5

are worthwhile, we do not intend to elevate our disagreement concerning them to the
Department of the Treasury for resolution.
Our results and estimates are based on a sample of FY 2003 cases to provide the most
current and relevant information to TAS management. The trend information from
FYs 1998 to 2003 shows the basis for our concern about the timeliness of the TAS
advocacy program. TAS management agreed or partially agreed with our findings in
about 70 percent of our cases, which represented approximately 80 percent of the total
time that the cases were delayed. We considered the TAS’ responses in each of the
88 cases to which it did not agree. Notwithstanding, we continue to disagree and still
believe a delay occurred in these cases.
•   In 42 cases, the TAS’ responses were too vague to determine the reason for
    disagreement.
•   In 14 cases, the TAS responded the taxpayer had not been harmed even though a
    delay occurred.
•   In 19 cases, the TAS responded the delay was justified based on the case
    advocate’s judgment; however, management did not present a valid reason for the
    delay.
•   In 13 cases, the TAS disagreed because employees were operating within the TAS
    policies and procedures related to the 5-day grace period for follow-up dates or
    those that allow case advocates to keep cases open for monitoring while the cases
    are in the Appeals function.
The NTA believes median cycle time is a more accurate indicator of what the typical
TAS customer experiences. We do not agree. The median is the mid-point. As such,
50 percent of the taxpayers experience a case resolution time that is longer than the
median case resolution time. A timeliness standard that relies on a mid-point minimizes
the collective impact of extreme delays, many of which we encountered in our review.
Such extreme delays caused serious burden to some taxpayers and should prompt
more aggressive resolution by the TAS than is currently taken.
It should be noted that we never took exception to the length of time a case was open;
we took exception only if actions were not timely. The average case cycle time was
used to show the effect of delays. The mean case cycle time is the same information
the TAS reported to the IRS Commissioner in past Business Performance Reviews.
The NTA stated that the case cycle time statistics before FY 2001 are not comparable
to those for FY 2003 because the casework was handled by the Problem Resolution
Program until March 2000. We would like to clarify this point. The Office of the
Taxpayer Advocate replaced the position of the Taxpayer Ombudsman in 1996.4 The
IRS Restructuring and Reform Act of 19985 did not create the Office of the Taxpayer

4
  Taxpayer Bill of Rights 2, Pub. L. No. 104-168, 110 Stat. 1452 (1996) (codified as amended in scattered sections
of 26 U.S.C.)
5
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                            6

Advocate but reorganized employees from the Problem Resolution Program into a
system of local taxpayer advocates who report directly to the NTA. This organizational
structure was implemented in March 2000. Notwithstanding, we believe comparing
trends over time provides useful information to management and helps identify
problems. We recognized in this report that the TAS organizational structure has
undergone significant changes as a result of the tax laws; however, the TAS and the
Problem Resolution Program both share the same core mission of assisting taxpayers
when the IRS has not addressed their problems.
The NTA believes TAS casework is timelier based on certain quality standards the TAS
uses in its quality reviews. We did not review the accuracy of TAS quality reviews
during this audit. However, we did find significant delays by the TAS in resolving cases,
and TAS management acknowledged most of these delays. The NTA also asserted
that TAS casework has become more complex. We do not believe the TAS’ anecdotal
evidence provides an adequate basis for this assertion.
Last year, we reported the TAS did not address potential systemic problems that
affected large groups of taxpayers. Instead, TAS management redirected a significant
number of its staff to work on the NTA’s Annual Report to Congress. Systemic projects
were allowed to age up to 3 years without action because analysts were devoting the
majority of their time to the Annual Report to Congress. For example, we identified a
partnership project that potentially affected 16.5 million taxpayers which had been open
for 2.5 years without any action. The NTA’s assertion that no delay occurred because
these taxpayers could only have been assisted by means of a legislative proposal put
forth in the Annual Report to Congress is misleading. At the time of our review, the TAS
was taking no such action on their behalf. We recommended changes to help the TAS
use and monitor its resources to improve the Systemic Advocacy function while still
providing the NTA’s Annual Report to Congress.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
                    The Taxpayer Advocate Service Needs to Improve Case
                 Management to Ensure Taxpayer Problems Are Resolved Timely




                                                  Table of Contents


Background ............................................................................................... Page 1
Inefficient Case Management Often Led to Lengthy Delays in Resolving
Taxpayers’ Problems................................................................................. Page 2
         Recommendation 1: .......................................................................Page 8
         Recommendations 2 and 3: ...........................................................Page 9
         Recommendation 4: .......................................................................Page 10

Some Delays Did Not Affect Taxpayers but Did Distort Open Inventory
Levels and Case Resolution Time Statistics ............................................. Page 10
         Recommendations 5 and 6: ...........................................................Page 12

Better Communication Is Needed Between the Case Advocates and
the Internal Revenue Service Operating Divisions .................................... Page 13
         Recommendation 7: .......................................................................Page 15

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 17
Appendix II – Major Contributors to This Report ....................................... Page 19
Appendix III – Report Distribution List ....................................................... Page 20
Appendix IV – Outcome Measures............................................................ Page 21
Appendix V – Charts Showing Case Processing Time, Receipts,
Closures, and Staffing ............................................................................... Page 22
Appendix VI – Management’s Response to the Draft Report .................... Page 24
                The Taxpayer Advocate Service Needs to Improve Case
             Management to Ensure Taxpayer Problems Are Resolved Timely

                                The Office of the Taxpayer Advocate, also known as the
Background
                                Taxpayer Advocate Service (TAS), is an independent
                                function within the Internal Revenue Service (IRS) which
                                helps taxpayers resolve problems with the IRS that have not
                                been resolved through normal IRS processes. The TAS also
                                works to correct systemic problems that affect large
                                numbers of taxpayers. In Fiscal Year (FY) 2003, the TAS
                                received 188,209 new cases from taxpayers, tax
                                practitioners, and referrals by the IRS operating divisions
                                and Congressional offices. Table 1 provides a summary of
                                the reasons taxpayers contacted the TAS in FY 2003.
                                         Table 1: Types of TAS Cases Received in FY 2003
                                                                                           Percentage
                                             Reason for Contacting the TAS                   of TAS
                                                                                              Cases
                                 IRS systems or procedures either did not operate as
                                                                                               31%
                                 intended or did not resolve the taxpayer’s problem.
                                 Taxpayer experienced a delay of more than 30 days to
                                                                                               27%
                                 resolve a tax account problem with the IRS.
                                 Taxpayer did not receive a response from the IRS by the
                                                                                               19%
                                 date promised.
                                 Taxpayer is suffering or about to suffer a significant
                                                                                               12%
                                 hardship.
                                 Taxpayer is facing threat of adverse action.                   3%
                                 Taxpayer will incur significant costs if relief is not
                                                                                                2%
                                 granted.
                                 Taxpayer will suffer an irreparable injury or long term
                                                                                                2%
                                 adverse impact.
                                 Any case not meeting specific TAS criteria but
                                                                                                4%
                                 warranting TAS intervention.
                                Source: National Taxpayer Advocate – FY 2003 Annual Report to
                                the Congress.

                                If a taxpayer’s problem falls within the TAS’ authorities, a
                                TAS employee, known as a case advocate, will work the
                                case to resolution. However, if any action is outside the
                                TAS’ authorities, case advocates must obtain the assistance
                                of an IRS operating division(s) using an Operations
                                Assistance Request (Form 12412) to resolve the taxpayer’s
                                problem.


                                                                                              Page 1
                The Taxpayer Advocate Service Needs to Improve Case
             Management to Ensure Taxpayer Problems Are Resolved Timely

                                 In September 2002, the IRS Oversight Board issued a report
                                 that focused on the TAS’ operation. One of the major
                                 concerns of the IRS Oversight Board was that the TAS and
                                 the IRS operating divisions are not resolving taxpayers’
                                 problems quickly.1 The American Institute of Certified
                                 Public Accountants (AICPA) also expressed concerns about
                                 slow responses from the TAS and its unwillingness to use
                                 its authority to cut through red tape.2
                                 We performed this review to evaluate the efficiency and
                                 timeliness of the processes used by the TAS to resolve
                                 taxpayers’ problems. This review was performed using a
                                 statistical sample of TAS cases nationwide which were
                                 closed in FY 2003 and information obtained from the TAS
                                 Washington, D.C., office during the period November 2003
                                 through June 2004. The audit was conducted in accordance
                                 with Government Auditing Standards. Detailed information
                                 on our audit objective, scope, and methodology is presented
                                 in Appendix I. Major contributors to the report are listed in
                                 Appendix II.
                                 Because cases the TAS receives often involve financial
Inefficient Case Management
                                 hardships to the taxpayers as well as delays in resolving
Often Led to Lengthy Delays in
                                 taxpayer problems though normal IRS channels, the TAS is
Resolving Taxpayers’ Problems
                                 concerned about the timeliness of its case processing. The
                                 TAS uses case cycle time as one of its diagnostic measures
                                 in its Business Performance Review.
                                 TAS statistics indicate the average time to resolve cases has
                                 increased significantly since 1998—it more than doubled
                                 over the last 5 years, from an average of 37 days to 76 days.
                                 The increase in case cycle time is not due to fewer staff or
                                 heavier workload. There was a significant increase in the
                                 TAS staff during FY 2000, and since then the number of
                                 employees assigned to case advocacy has remained
                                 relatively consistent. Moreover, the TAS case workload has
                                 decreased over time—the number of cases received and
                                 closed by the TAS was 41 percent lower in FY 2003 than in



                                 1
                                   Oversight of the Office of Taxpayer Advocate: Principal Findings and
                                 Actions, IRS Oversight Board, dated September 2002, page 1.
                                 2
                                   AICPA Suggests Improvements to Local Tax Payer Advocate Service,
                                 dated September 23, 2003.
                                                                                               Page 2
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely

                   FY 1998. Table 2 shows the trends in the TAS workload,
                   staffing, and cycle time to resolve cases.3
                    Table 2: Trends in the TAS Workload, Staffing, and Cycle Time to
                                     Resolve Cases, FYs 1998 – 2003
                                   Cases        Cases        Case        Cycle Time to
                       Fiscal
                                 Received      Closed      Advocacy      Resolve Cases
                       Year
                                by the TAS   by the TAS    Employees    (calendar days)

                       1998       333,636      314,554           n/a4         37
                       1999       286,773      294,899            n/a         46
                       2000       257,196      238,063         1,499          54
                       2001       254,026      248,011         1,922          72
                       2002       216,899      234,327         1,829          81
                       2003       188,209      196,619         1,904          76
                   Source: National Taxpayer Advocate – Business Performance
                   Reviews.

                   During FYs 1998, 1999, and part of 2000, the TAS operated
                   under a different organizational structure, known as the
                   Problem Resolution Program. The National Taxpayer
                   Advocate (NTA) stated that part of the increase in case
                   resolution time resulted from changes in the TAS
                   organizational structure and its authorities in FY 2000. The
                   NTA also believes the TAS now works a higher percentage
                   of cases involving complex issues. However, the NTA was
                   not able to provide enough data or other evidence for us to
                   verify these as causes for increased case resolution time.
                   Based on our review, we believe a significant portion of the
                   increase in time needed to resolve taxpayers’ problems was
                   due to inefficient case management on the part of TAS
                   employees and inadequate management oversight by the
                   TAS.
                   Last year, we reviewed the TAS Systemic Advocacy
                   function, which is devoted to resolving problems that affect


                   3
                     See Appendix V for charts illustrating the 6-year trends in the TAS
                   workload, staffing, and cycle time to resolve cases.
                   4
                     Information was not available for the TAS staffing levels in 1998 and
                   1999 because TAS employee counts were combined with those of other
                   IRS functions. Since the IRS reorganized in 2000, TAS staffing has
                   been reported separately.
                                                                                   Page 3
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely

                   large numbers of taxpayers.5 In our opinion, systemic
                   problems were not addressed timely because TAS
                   management shifted staff away from Systemic Advocacy
                   function work to produce the NTA’s Annual Report to
                   Congress. Based on our prior and current reviews of the
                   TAS, we are concerned the TAS may not be using its
                   resources effectively to accomplish its primary mission of
                   helping individual taxpayers and resolving systemic
                   problems.
                   To manage its inventory of taxpayer cases, the TAS uses an
                   automated system called the Taxpayer Advocate
                   Management Information System (TAMIS). To evaluate
                   the timeliness of actions taken to resolve taxpayers’
                   problems, we reviewed a statistical sample of 500 of the
                   203,634 TAS cases closed in FY 2003.6
                   Of the 500 cases we reviewed, there were 273 cases in
                   which the TAS did not take timely actions to resolve the
                   taxpayers’ problems, which often caused prolonged delays.
                   In many of the cases, the case advocates did not document a
                   plan of action to resolve the taxpayer’s problem and were
                   not effectively establishing follow-up dates on the TAMIS,
                   which prevented them from using the System’s automated
                   tools to prioritize their work. Even when follow-up dates
                   were recorded on the TAMIS, case advocates often did not
                   follow up by the dates set and did not document why the
                   follow-up dates were missed. In addition, case advocates
                   often set follow-up dates which were too far in the future
                   when information needed to take the next action on the case
                   was available at a much earlier date.
                   Case resolution was also delayed because it appeared the
                   case advocates did not have the technical knowledge to
                   resolve certain cases and did not seek assistance from
                   management or the technical experts. We also found that
                   TAS procedures allow case advocates to miss a follow-up
                   date they established by up to 5 workdays, which minimizes

                   5
                     The National Taxpayer Advocate Could Enhance the Management of
                   Systemic Advocacy Resources (Reference Number 2003-10-187, dated
                   September 2003).
                   6
                     TAS statistics report only 196,619 cases closed in FY 2003 because
                   the TAS does not include the approximately 7,000 cases which had been
                   previously closed but were then reopened and closed again in FY 2003.
                                                                                Page 4
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely

                   the sense of urgency inherent in the TAS. Since a case can
                   have numerous follow-up dates, delays could be
                   compounded if the case advocate consistently misses the
                   follow-up dates. Table 3 summarizes the results from our
                   sample of 500 TAS cases and the estimated total number of
                   taxpayers affected by each type of TAS delay in FY 2003.
                        Table 3: TAS Cases With Unnecessary Delays in Resolving
                                    Taxpayers’ Problems (FY 2003)
                                                                                      Estimated
                                                                       Average Days     Effect
                                                             Estimated
                          Type of Delay          Number                Delayed For on Overall TAS
                                                             Taxpayers
                       Affecting Taxpayers       of Cases7              Taxpayers       Case
                                                             Affected8
                                                                         Affected     Resolution
                                                                                    Time (in days)

                    No follow-up date was set
                    for the next action to         159        32,797        35           5.71
                    resolve the case.
                    Follow-up date was
                    documented but missed by       102        23,447        36           4.18
                    more than 5 workdays.
                    Delays in obtaining
                                                    65        11,224        56           3.08
                    technical assistance.
                    Follow-up date provided
                    more time than needed to        47        15,127        15           1.14
                    complete the case action.
                    Follow-up date was
                    documented but missed by        43        15,779         7           .54
                    5 or fewer workdays.
                    Excessive and/or multiple
                    deadlines were set to
                                                    31         9,426        43           .97
                    obtain internal/external
                    documents.
                    No actions were taken
                    while the employee was on       14         1,673        34           .28
                    leave or in training.
                    Dispute between TAS
                    offices as to which office
                                                    9          1,240        24           .15
                    was responsible for the
                    case.
                   Source: The Treasury Inspector General for Tax Administration (TIGTA)
                   sample review of 500 TAS FY 2003 closed cases and statistical projections.


                   7
                     A taxpayer can have more than one type of delay and is included in
                   each type of delay. A taxpayer with multiple instances within a type of
                   delay is included only once.
                   8
                     A taxpayer can be affected more than once if multiple types of delays
                   occur.
                                                                                        Page 5
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely

                   We estimate that 76,183 taxpayers experienced at least
                   1 unnecessary delay in FY 2003 because the TAS did not
                   take timely actions to resolve taxpayers’ problems. In
                   addition, we estimate the TAS’ average time of 76 days to
                   resolve cases in FY 2003 would have been 16 days fewer if
                   case actions had been timely.9
                   These delays can cause additional frustration and burden to
                   taxpayers who have already been unable to resolve their
                   problems through normal IRS processes. The following are
                   examples of cases in our sample with lengthy delays
                   encountered by taxpayers in resolving their problem through
                   the TAS:
                   •      In a case that involved a problem with employment
                          taxes, it took 910 days (approximately 2½ years) for the
                          TAS to resolve the matter. Delays accounted for
                          71 percent of the time the case was open. There were
                          11 separate periods of inactivity that totaled 649 days.
                          One period of inactivity was 230 consecutive days. The
                          case advocate did not use follow-up dates, and there
                          were no explanations for the delays in the case history.
                   •      A business contacted the TAS because it had received a
                          refund to which it was not entitled. It took 538 days
                          (almost 1½ years) for the TAS to resolve this problem.
                          Unnecessary delays accounted for 391 consecutive days.
                          The case advocate did not take the necessary action to
                          try to solve the taxpayer’s problem during the period of
                          inactivity. It appeared the case advocate did not know
                          how to correct the account and did not contact the group
                          manager or other technical specialists to help resolve the
                          issue sooner.
                   •      In a case involving penalties and interest that should
                          have been removed from a taxpayer’s account, it took
                          281 days for the TAS to resolve the matter. The case
                          advocate missed 3 separate follow-up dates originally
                          set in the case history by 125, 16, and 106 consecutive
                          days. We estimate the TAS should have resolved the
                          taxpayer’s issue within 34 days.



                   9
                       See Appendix IV for details of our estimates.
                                                                             Page 6
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely

                   •   A nonprofit organization’s bank account was levied
                       while the TAS was supposed to be working on its case.
                       The TAS took no action on the case for 201 consecutive
                       days and did not timely contact the IRS Collection
                       function. Due to the bank levy, the nonprofit
                       organization had difficulty paying its employees and the
                       TAS took almost a year to correct the situation and
                       refund the monies that were levied.
                   TAS procedures require case advocates to develop an action
                   plan when they initially receive a taxpayer’s case. An
                   action plan is important because it facilitates proper case
                   management and provides a map for anyone who may need
                   to take action on the case. The procedures also require case
                   documentation to be clear, specific, and complete so anyone
                   reviewing a case can follow the progress of the action plan,
                   know what actions have been taken, and know what the next
                   action will be. Despite these requirements, case advocates
                   generally did not develop and document action plans needed
                   to resolve taxpayers’ problems. Case documentation was
                   generally poor and delays were not explained.
                   Manager case reviews were limited and did not appear
                   to be effective
                   TAS management’s review of cases did not appear to
                   address the absence of case action plans or untimely case
                   processing. TAS management reviewed only
                   172 (34 percent) of the 500 cases in our sample. Most of
                   the cases reviewed by management indicated the case was
                   reviewed, but no guidance was provided in the case history.
                   Consequently, the case files could not be used to determine
                   how management attempted to address delays. Moreover,
                   in some instances, delays continued to occur even after
                   management reviewed the cases.
                   According to TAS officials, concerns by employees and the
                   National Treasury Employees Union (NTEU) that
                   management reviews could be used against employees have
                   caused many TAS managers to not document their reviews
                   in case files. The TAS is in the process of developing a new
                   method for management case reviews that is being
                   negotiated with the NTEU. TAS management stated this
                   new method was developed to provide a more
                   comprehensive format and consistency across the nation.
                                                                         Page 7
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely

                   However, there is no indication the new TAS method for
                   management review will address the inadequate case
                   planning and the untimely casework. In addition, the new
                   method does not specify when or how often manager
                   reviews are to be performed.
                   Better monitoring by TAS managers would help detect poor
                   workload management and delays in resolving cases. It
                   would act as an important control and a means to provide
                   immediate feedback and direction to employees.

                   Recommendations

                   The NTA should:
                   1. Alert TAS managers that case advocates are not
                      developing and documenting case action plans as
                      required. Further, managers should be alerted that
                      follow-up dates are often not being recorded on the
                      TAMIS as required and that established follow-up dates
                      are often not met.
                   Management’s Response: The NTA agreed with our
                   recommendation and has redesigned the TAMIS to give
                   employees the tools to maintain date fields, action plan
                   items, and inventory management controls. Managers use
                   the “Next Action Date” report generated by the new TAMIS
                   to ensure timeliness of case actions. TAS management is
                   required to use a new case review form that addresses the
                   necessity of documenting a case action plan. Recent
                   changes to the TAS procedures will provide clarity on the
                   use of action plans and follow-up dates. The proper use of
                   action plans and follow-up dates will be part of TAS
                   training on the new procedures scheduled for the first
                   quarter of FY 2005.
                   Office of Audit Comment: The TAS’ actions appear to be
                   beneficial but do not fully address the recommendation to
                   alert managers that case advocates are not developing action
                   plans as already required by TAS procedures and that
                   follow-up dates are not being recorded or met. The purpose
                   of an alert is to quickly notify management that a significant
                   problem exists and should be addressed immediately.


                                                                          Page 8
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely

                   2. Provide training to case advocates on the requirement to
                      develop and document case action plans at the beginning
                      of each case. The training should guide employees on
                      determining the overall time period needed to complete
                      a case as well as intermediate follow-up dates to ensure
                      the case is progressing as intended. The training should
                      also address the need to improve case documentation so
                      the progress of the case action plan can be properly
                      monitored.
                   Management’s Response: The NTA agreed with this
                   recommendation and has redesigned the TAMIS to give
                   employees the tools to maintain date fields, action plan
                   items, and inventory management controls. Also, recent
                   changes to the TAS procedures will provide clarity on the
                   use of action plans and follow-up dates that will be part of
                   TAS training scheduled for the first quarter of FY 2005.
                   3. Revise the procedures to eliminate the 5-day grace
                      period allowed on follow-up dates.
                   Management’s Response: The NTA did not agree with this
                   recommendation. The NTA indicated that all cases must be
                   worked as they arrive and case advocates often face multiple
                   deadlines that fall on the same day. This 5-day grace period
                   provides case advocates with the flexibility they require to
                   set priorities. For example, a case advocate facing a
                   follow-up date on one case may receive another case in
                   which the IRS is about to seize a taxpayer’s property. The
                   NTA believes case advocates must have the flexibility to
                   work the case involving the property seizure before working
                   other cases.
                   Office of Audit Comment: We believe case advocates
                   should take action by the date they specified in the case
                   history to avoid delays and move the case to resolution.
                   Allowing a grace period undermines the importance of
                   meeting follow-up dates and the sense of urgency inherent
                   to the TAS. We understand that case advocates may not
                   always meet the follow-up date they set. In those instances,
                   they should document the case with an explanation.
                   However, we found that case histories were poorly
                   documented and case advocates generally did not explain
                   why follow-up dates were missed.

                                                                          Page 9
                  The Taxpayer Advocate Service Needs to Improve Case
               Management to Ensure Taxpayer Problems Are Resolved Timely

                                  4. Include in the new management case review procedures
                                     specific direction for when and how often managerial
                                     reviews are to be performed. An expected completion
                                     date should be established at the beginning of each case
                                     to assist managers in identifying cases which have been
                                     delayed, so the managers will review such cases and
                                     take corrective action.

                                  Management’s Response: The NTA agreed with this
                                  recommendation and will examine the managerial review
                                  process. The TAS has already implemented a new case
                                  review form and a new requirement for local taxpayer
                                  advocates to review cases that have reached 100 days. In
                                  FY 2005, Area and Headquarters Offices will review the
                                  local manager reviews. In addition, the TAS is developing a
                                  strategy to conduct case reviews 7-10 days after new cases
                                  are received to ensure case advocates have developed action
                                  plans and are on the right track. The TAS plans to make a
                                  formal determination on the types and frequency of reviews
                                  based on the trends identified through its quality and
                                  evaluative reviews.
                                  There were also delays in closing cases that did not affect
Some Delays Did Not Affect
                                  the taxpayers involved but did inflate the TAS open
Taxpayers but Did Distort Open
                                  inventory and average reported case resolution time. In
Inventory Levels and Case
                                  56 of the 500 TAS cases reviewed, the cases were not
Resolution Time Statistics
                                  closed on the TAMIS when the TAS had completed all case
                                  actions. In 29 cases, the delayed case closing appeared to be
                                  an oversight on the part of the TAS since the taxpayers’
                                  issues were already resolved. In the other 27 cases, the TAS
                                  left the cases open for monitoring. Table 4 summarizes the
                                  results from our sample of 500 TAS cases and the estimated
                                  total number of cases in FY 2003 in which the case closure
                                  was delayed.




                                                                                       Page 10
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely

                        Table 4: TAS Cases With Incorrectly Reported Case Resolution
                                              Time (FY 2003)
                                                                                    Estimated
                                                                                      Effect
                                                      Estimated    Average Days
                        Type of Delay     Number of                                 on Overall
                                                        Cases       Delayed for
                        Affecting Cases    Cases10                                  TAS Case
                                                      Affected11   Cases Affected
                                                                                    Resolution
                                                                                  Time (in days)
                    Untimely case
                    closing after all
                                             29        17,039           14             1.19
                    actions were
                    completed.
                    The TAS left cases
                    open for                 27         1,778           229            2.00
                    monitoring.
                   Source: The TIGTA sample review of 500 TAS FY 2003 closed cases and
                   statistical projections.

                   For TAS cases in general, if the IRS determines a taxpayer
                   is not entitled to relief and the taxpayer appeals the decision,
                   the TAS will close the case. However, the NTA directed
                   that cases involving innocent spouse issues be kept open
                   throughout the entire appeals process to monitor processing
                   that may occur by the IRS campuses12 after the Appeals
                   function has completed its review. TAS procedures for
                   innocent spouse cases state, “Cases going to Appeals
                   Division will not be closed until Appeals makes a
                   determination on the appeal and the taxpayer/representative
                   is informed.”
                   The TAS’ policy of monitoring these types of cases
                   throughout the Appeals function process may be beneficial;
                   however, because of the length of the Appeals function
                   process and because further case actions on the part of the
                   TAS are usually not necessary, the practice of leaving these
                   cases open on the TAMIS reduces the accuracy of the case
                   resolution time statistics provided by this System. Although
                   these cases account for a small percentage of the total


                   10
                      A case can have more than one type of delay and is included in each
                   type of delay. A case with multiple instances within a type of delay is
                   included only once.
                   11
                      A case can be affected more than once if multiple types of delays
                   occur.
                   12
                      The data processing arm of the IRS. The campuses process paper and
                   electronic submissions, correct errors, and forward data to the
                   Computing Centers for analysis and posting to taxpayer accounts.
                                                                                       Page 11
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely

                   number of cases with delays, the total number of days these
                   cases are left open affects the overall case cycle time, which
                   affects the reliability and comparability of the TAMIS data.
                   For example, 1 such TAS case took 1,330 days (more than
                   3½ years) to close. In our opinion, the case advocate should
                   have closed this case 959 days (more than 2½ years) earlier
                   once the Appeals function received the request for relief.
                   Overall, based on the cases we reviewed, we estimate these
                   delays in recording case closure affected 18,817 cases in
                   FY 2003, which inflated the TAS’ average case resolution
                   time by over 3 days.13

                   Recommendations

                   The NTA should:
                   5. Alert TAS managers that case advocates are not closing
                      cases after all actions are completed.
                   Management’s Response: The NTA agreed with this
                   recommendation and will issue a reminder to ensure all
                   actions occur on or within limits described in TAS
                   procedures. The TAS will also review the existing
                   procedural requirements to determine if additional
                   clarification is needed. In addition, the redesigned TAMIS
                   allows managers to more effectively track dates set by case
                   advocates and to conduct follow-up reviews to ensure
                   deadlines are met.
                   6. Revise TAS procedures to close cases once the IRS has
                      made a determination, even if the taxpayer appeals that
                      determination. If the TAS monitors such cases, it
                      should ensure the TAMIS reflects that the cases are in
                      monitoring status.
                   Management’s Response: The NTA did not agree with this
                   recommendation. The NTA indicated the TAS must assist
                   each taxpayer until the IRS completes action on the case. If
                   a taxpayer appeals an adverse IRS determination, a TAS
                   case advocate assists the taxpayer regarding his or her
                   appeal rights and processes. The TAS also retains the
                   authority to intervene on the taxpayer’s behalf and, if

                   13
                        See Appendix IV for details of our estimates.
                                                                         Page 12
                The Taxpayer Advocate Service Needs to Improve Case
             Management to Ensure Taxpayer Problems Are Resolved Timely

                                necessary, to issue a Taxpayer Assistance Order to the
                                Appeals function. Each determination to hold a case open
                                during the appeal process is made on the basis of a
                                facts-and-circumstances analysis. The NTA believes
                                closing cases simply to shorten cycle time would elevate
                                process above fulfillment of the TAS’ core mission.
                                Office of Audit Comment: Keeping cases open on the
                                TAMIS when the cases are in monitoring status reduces the
                                accuracy of case resolution time statistics, which reduces
                                their benefit as a diagnostic tool.

Better Communication Is         Before the IRS Restructuring and Reform Act of 1998
Needed Between Case             (RRA 98)14 was implemented, TAS employees performing
Advocates and the Internal      case-related activities were part of the IRS’ core business
Revenue Service Operating       functions, such as Collection or Examination. Prior to
Divisions                       FY 2000, the TAS operated as the Problem Resolution
                                Program. After the passage of the RRA 98, the TAS
                                became an independent function and its employees no
                                longer reported to the core business functions. When the
                                TAS became an independent function, the actions TAS
                                employees could take to resolve taxpayer issues were very
                                limited. In January 2001, the IRS Commissioner delegated
                                additional authorities to the TAS to take certain case-related
                                actions.15 This increased the number of cases the TAS
                                employees could resolve without assistance from IRS
                                operating divisions. Nonetheless, there are still many case
                                actions needed to resolve taxpayer problems which are
                                outside the TAS’ authorities. For these actions, case
                                advocates must obtain the assistance of an IRS operating
                                division(s) using an Operations Assistance Request.
                                The NTA has stated that the process of referring cases to the
                                IRS operating divisions may have had a significant impact
                                on the TAS’ case cycle time. However, we could not
                                validate this assumption since the TAS did not keep
                                statistics regarding the age or timeliness of Operations
                                Assistance Requests.



                                14
                                   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                15
                                   Delegation Order No. 267, January 17, 2001.
                                                                                               Page 13
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely

                   In September 2002, the TAS established Service Level
                   Agreements with the operating divisions to provide a
                   uniform method and basic requirements for the IRS
                   operating divisions when assisting the TAS. The Service
                   Level Agreements require that the TAS and the operating
                   divisions negotiate and agree to a completion date for each
                   Operations Assistance Request. In general, the Service
                   Level Agreements state that, if the taxpayer’s case cannot be
                   completed by the agreed upon date, the TAS manager or
                   liaison should contact the operating division liaison to
                   discuss the reasons for the delay.
                   In our sample of 500 TAS cases closed in FY 2003, there
                   were 323 cases that required 1 or more Operations
                   Assistance Requests. For these 323 cases, there were
                   612 Operations Assistance Requests. We compared the
                   Requested Completion Date (the date requested by the case
                   advocate) with the date the operating division employee
                   completed the requested action to determine whether the
                   operating divisions were resolving issues timely. However,
                   there was not enough information in the TAS case files to
                   determine if the operating divisions were causing delays
                   because the Operations Assistance Requests were
                   incomplete. Case advocates did not include the Requested
                   Completion Date for 123 Operations Assistance Requests,
                   and the operating division employees did not record the date
                   they completed 99 Operations Assistance Requests.
                   Further, although case advocates are required to contact the
                   IRS operating division employee assigned to an Operations
                   Assistance Request to discuss case issues and the proposed
                   completion date, case advocates did not do this consistently.
                   For the cases in which the case advocate did record a
                   Requested Completion Date, there was no indication that the
                   case or the proposed completion date was discussed with the
                   appropriate IRS operating division.
                   Beginning in FY 2004, the TAS developed an electronic
                   method to maintain and track Operations Assistance
                   Requests on its inventory system. In addition, the TAS is
                   developing an online Intranet portal that will be available to
                   the operating divisions. After the portal is implemented, the
                   TAS plans to provide reports to each operating division with
                   the location, age, and status of each Operations Assistance

                                                                         Page 14
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely

                   Request. This portal will help the TAS and the operating
                   divisions manage their inventory of Operations Assistance
                   Requests and will provide statistical data on the timeliness
                   of completion of these Requests. The Deputy
                   Commissioner for Services and Enforcement has required
                   the operating divisions to report on the status of the TAS
                   case inventory in their Business Performance Reviews
                   starting in FY 2004. The operating divisions were directed
                   to include any conclusions drawn from the reports provided
                   by the TAS and resolve any systemic delays or problems.
                   This electronic method to maintain and track Operations
                   Assistance Requests is a step in the right direction.
                   Nonetheless, since Requested Completion Dates are often
                   established by the TAS without the agreement of the
                   operating divisions, the reports and statistical information
                   the TAS provides to the operating divisions for Operations
                   Assistance Requests may be of limited benefit in providing
                   a useful measure of timeliness. Better communication will
                   be needed to ensure the dates set for completion are
                   achievable.

                   Recommendation

                   7. The NTA should provide additional guidance to case
                      advocates on communicating with IRS operating
                      divisions to coordinate case resolution and to set
                      achievable deadlines for completing Operations
                      Assistance Requests.
                   Management’s Response: The NTA agreed with this
                   recommendation. The TAS will continue to emphasize
                   setting achievable completion dates and work with the
                   operating divisions to ensure adherence to the Service Level
                   Agreements. The TAS has initiated projects to promote
                   campus consistency and to improve procedures for
                   processing innocent spouse claims, Criminal Investigation
                   function freeze cases, and Earned Income Tax Credit cases.
                   In addition, TAS procedures recommend time periods for
                   some common issues arising through Operations Assistance
                   Requests to assist the TAS in establishing estimated
                   completion dates.


                                                                        Page 15
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely

                   Office of Audit Comment: The TAS’ actions appear
                   beneficial to the overall processing of Operations Assistance
                   Requests, but the proposed corrective actions do not fully
                   address our recommendation to provide case advocates
                   additional guidance on communicating with the IRS
                   operating divisions. Both the TAS and the operating
                   divisions need to reach agreement about when Operations
                   Assistance Requests will be completed.




                                                                        Page 16
                   The Taxpayer Advocate Service Needs to Improve Case
                Management to Ensure Taxpayer Problems Are Resolved Timely

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the efficiency and timeliness of the Taxpayer
Advocate Service (TAS) in resolving taxpayers’ problems. To complete this objective, we:
I.      Determined what guidance had been provided to the TAS and Internal Revenue Service
        (IRS) operating division employees for the processing of TAS cases by reviewing the
        Internal Revenue Manual, authorities delegated to the TAS by the IRS Commissioner,
        and Service Level Agreements between the TAS and the operating divisions.
II.     Used the Taxpayer Advocate Management Information System (TAMIS) to select a
        stratified statistical sample of 500 cases from the 196,617 regular cases and
        7,017 reopened cases1 closed by the TAS in Fiscal Year 2003. With the assistance of a
        statistician, we selected a sample to project the number of taxpayers affected and the
        amount of time delayed. The sample used a 95 percent confidence interval and a
        +/- 4 percent desired precision rate. The strata were determined as follows:


                       Stratum        Number of          Population of        Sample Size
                                     Days the Case         Stratum2           per Stratum
                                      Was Open

                           1              0-29               61,508                 50

                           2             30-69               71,671                 75

                           3             70-119              38,226                125

                           4            120-365              28,877                125

                           5           366-1,307              3,327                100

                           6            1,308 or               25                   25
                                         longer




1
  The TAS did not include the reopened cases in total closures for Fiscal Year 2003 in its Business Performance
Review Report.
2
  Population of Stratum includes the 196,617 cases plus 7,017 cases that were reopened.
                                                                                                           Page 17
                The Taxpayer Advocate Service Needs to Improve Case
             Management to Ensure Taxpayer Problems Are Resolved Timely

III.   Determined if the TAS caused delays in processing the 500 cases in our sample by
       reviewing the case histories on the TAMIS and the physical case files. For the cases we
       identified with delays, we projected the number of exceptions and days delayed over the
       population with the assistance of a statistician.
IV.    Determined the number of cases that involved an Operations Assistance Request and
       reviewed them for timely actions by the operating divisions. This included reviewing
       completion dates on Operations Assistance Requests required to be input by the operating
       divisions and the TAS.




                                                                                        Page 18
                The Taxpayer Advocate Service Needs to Improve Case
             Management to Ensure Taxpayer Problems Are Resolved Timely

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Aaron R. Foote, Audit Manager
Janice M. Pryor, Lead Auditor
Joseph P. Smith, Senior Auditor
Michael J. Della Ripa, Auditor




                                                                                      Page 19
               The Taxpayer Advocate Service Needs to Improve Case
            Management to Ensure Taxpayer Problems Are Resolved Timely

                                                                        Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       National Taxpayer Advocate TA
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W
       Chief, Appeals AP




                                                                             Page 20
                   The Taxpayer Advocate Service Needs to Improve Case
                Management to Ensure Taxpayer Problems Are Resolved Timely

                                                                                                Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable effect that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
    •   Taxpayer Burden – Potential; delays in resolving 76,183 taxpayer problems during Fiscal
        Year (FY) 2003 (see page 2).
    •   Reliability of Data – Potential; 18,817 Taxpayer Advocate Service (TAS) cases due to
        untimely actions in closing cases and TAS procedures (see page 10).
Methodology Used to Measure the Reported Benefit:
The TAS provided the number of closed cases in FY 2003. The population consisted of
196,617 “regular” cases and 7,017 cases that had been reopened.1 We selected a statistically
valid stratified sample of 500 cases closed in FY 2003. Of these, 273 cases had unnecessary
delays in resolving taxpayers’ problems. Based on the sample, we estimated that a total of
76,183 taxpayer cases were delayed (our estimate is based on a 95 percent confidence level and a
precision of +/- 4.6 percent). We also identified eight specific types of delays that affected
taxpayers and the TAS’ overall average time to resolve cases (see Table 3 on page 5). Our
statistician computed weighted averages for each type of delay to determine the number of cases
that were affected and the average number of days delayed for each category.
Using the same statistically valid stratified sample of 500 cases closed in FY 2003, we also
identified 56 cases that increased the TAS’ case cycle time, which affected the reliability of data
but did not cause taxpayer burden. We estimated there were a total of 18,817 cases with
unreliable case resolution time (our estimate is based on a 95 percent confidence level and a
precision of +/- 3.5 percent). We also identified two specific types of delays that affected
reliability of case resolution time (see Table 4 on page 11). Our statistician computed weighted
averages for each type of delay to determine the number of cases that were affected and the
average number of days delayed for each category.




1
 The TAS did not include the reopened cases in total closures for FY 2003 in its Business Performance Review
Report.



                                                                                                        Page 21
                  The Taxpayer Advocate Service Needs to Improve Case
               Management to Ensure Taxpayer Problems Are Resolved Timely

                                                                                              Appendix V


      Charts Showing Case Processing Time, Receipts, Closures, and Staffing


                                      TAS Case Processing Time

                     100                                                        81
                                                                  72                    76
                      80
                                                       54
                      60         37
                                            46
        Days
                      40
                      20
                        0
                             1998        1999       2000       2001       2002       2003
                                                     Fiscal Year
Source: Business Performance Reviews for the Taxpayer Advocate Service (TAS).


                                         TAS Case Receipts
                     400,000
                                  333,636
                                             286,773
                     300,000                            257,196 254,026
      Receipts                                                                   216,899
                                                                                           188,209
                     200,000


                     100,000


                             0
                                  1998       1999       2000        2001         2002        2003
                                                            Fiscal Year

Source: Business Performance Reviews for the TAS.




                                                                                                     Page 22
                  The Taxpayer Advocate Service Needs to Improve Case
               Management to Ensure Taxpayer Problems Are Resolved Timely


                                       TAS Case Closures

                 400,000
                               314,554
                                              294,899
                 300,000                                238,063    248,011     234,327
                                                                                           196,619
 Cases
                 200,000
 Closed

                 100,000

                         0
                              1998           1999       2000       2001        2002        2003
                                                         Fiscal Year

Source: Business Performance Reviews for the TAS.


                                               TAS Staffing
                    3000
                               2342                                          2159
                                             2063           2113
                                                     1922          1829             1904
                    2000
                                      1499
     Employees                                                                               Total TAS
                    1000                                                                     Case
                                                                                             Advocacy

                        0
                               2000            2001            2002          2003
                                                    Fiscal Year

Source: Business Performance Reviews for the TAS and the Internal Revenue Service Oversight Board’s Report,
dated September 2002.




                                                                                                     Page 23
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely

                                                        Appendix VI


      Management’s Response to the Draft Report




                                                             Page 24
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 25
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 26
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 27
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 28
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 29
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 30
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 31
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 32
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 33
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 34
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 35
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 36
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 37
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 38
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 39
   The Taxpayer Advocate Service Needs to Improve Case
Management to Ensure Taxpayer Problems Are Resolved Timely




                                                             Page 40
